*

-\sn

No.

S“Pre

JUL 23
OFFICE

IN THE

°fth£

2021
£J£*k

SUPREME COURT OF THE UNITED STATES

Adolfo Gutierrez Avila Jr.-PETITIONER

VS.

Vicky Janssen-RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Court of Appeals For The Eighth Circuit

PETITIONER FOR WRIT OF CERTIORARI

Adolfo Gutierrez Avila Jr.
O.I.D.#248824
MCF-Rush City
7600 525th Street
Rush City. Mn 55069

RECEIVED
JUL 3 0 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S

QUESTION(S) PRESENTED

1. Where judicial misconduct targeted Petitioner, a person of color, violate his
Fundamental Federal Rights guaranteed him by the Due Process Clause in
the 14 Amendment?
2. Why are people of color Still being denied their Fundamental Federal Rights
guaranteed them by the Due Process Clause in the 14 Amendment?
3. How is systemic racism going to be abolished injudicial systems if judicial
misconduct targeting people of color is not corrected when found?

i

All parties appear in the caption of the case on the cover page.
State of Minnesota v. Avila, No. 42-CR-14-600, District Court Fifth
i
j

Judicial District. Judgement entered on December 29,2015.
State of Minnesota v. Avila, NO. A18-1567. Court of Appeals of
Minnesota. Reversed and Remanded Filed May 22,2017.

i

State of Minnesota v. Avila, No. A18-1567, Court of Appeals of
Minnesota. Affirmed Filed August 5,2019.
State of Minnesota v. Avila, No. A18-1567, State of Minnesota In
Supreme Court. Review Denied dated: October 15,2019.
Avila v. Vicky Janssen, No. 19-cv-3112-PJS-ECW, District Court
District of Minnesota. Judgement entered January 13,2021.
Avila v. Vicky Janssen, No. 19-cv-3112-PJS-ECW, District Court
District of Minnesota. Judgement entered January 26,2021.
Avila v. Vicky Janssen, No. 21-1520, U.S. Court of Appeals For the
Eighth Circuit. Judgement entered April 22,2021.
i

Avila v. Vicky Janssen, No. 21-1520, U.S. Court of Appeals For the
Eighth Circuit. Rehearing En Banc denied May 27.2021.

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES

Toussie v. U.S.,397 U.S. 112,25 L.Ed.2d 156(1970)...4,5,6
State v. Soukup, 746 N.W. 2d 918,922(Minn.App.2008).5
U.S. v. Dunnigan,No.91-1300. February 23,1993

5,10

Brady v. Maryland, 373 U.S. 83(1963)................

5

North Carolina v. Pearce,395 U.S. 711,725-26(1969) ..5
State v. Carver,390 N.W.2d 431, 434(Minn.App.1986)..5
In re Anderson, 312 Minn. 442, 252 N.W.2d 592(1977).5
William v. Taylor, 529 U.S. Supreme Court(April 18,2000).9,12
Lindh v. Murphy, 96 F.3 856(7th Cir.1996)....................

9,12

Teague v. Lane, 489 U.S. 288,310(1989)..........................

9,12

Panetti v. David

9,12

863 F.3d 366, 373-74(5th Cir.2017)

State v. Keller, unpublished Lexis 780(Minn.App.2018)....14
State v. French, Court of Appeals,No.CX-86-326(8-19-1986).14

STATUTES AND RULES

OTHER

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED

3

STATEMENT OF THE CASE

--•4

REASONS FOR GRANTING THE WRIT

13

INDEX TO APPENDICES
APPENDIX A(Post Verdict motion/brief and Exhibits 2
3,4,5,7)
APPENDIX B(statement of case/brief and reversed and
remanded May 22,2017 and affirmed August 5,2019)
APPENDIX C(Petition for Review Minnesota Supreme
Court and order denying review dated October 15,2019)
APPENDIX D( Rule 60 Motion(b)(3)fraud(Judicial
miscoduct/brief/judgements/order denying motion)
APPENDIX E( Judgement April 22.2021)U.S. Court of
Appeals For the Eighth Circuit)
APPENDIX F (Petition for Rehearing En Banc and order
denying Petition for Rehearing En Banc dated
May 27,2021)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgement below.
[X] For cases from federal courts:
The orders of the United States court of appeals appears at Appendix E to
the petition and is no opinion given.
The orders of the United States district court appears at Appendix D to
the petition and is no opinion given.

[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix B to the petition is unpublished.

1

JURISDICTION
[X] For cases from federal courts:

The dates on which the United States Court of Appeals decided my case
Was April 22,2021.
[X] A timely petition for rehearing en banc was denied by the United States Court
of Appeals on the following date: May 27,2021, and a copy of the order
denying rehearing en banc appears at Appendix F.

The jurisdiction of this court is invoked under 28 U.S.C.&1254(1).

[X] For cases from state courts:

The date on which the highest state court Supreme Court of Minnesota
denied review of my case was October 15,2019. A copy of that decision
appears at Appendix C.

The opinion of the highest state court to review the merits appears at
Appendix B to the petition is unpublished.

The jurisdiction of this court is invoked under 28 U.S.C. & 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Amendment 14 Sec.l[citizens of the U.S.];nor shall any state
i

deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction
the equal protection of the law. U.S.C.S.Amend.14,Part 1 of 14.

i

I

I

3

r

STATEMENT OF THE CASE
The statute of limitations claim was raised in all related cases listed in this
petition. By quoting and citing the governing legal principle set forth by this
court in Toussie v. U.S., 397 U.S. 112,25 L. Ed. 2d 156(1970). Through
briefs, motions and in court hearings. The federal question of when the
statute of limitations starts to run in Toussie v. U.S., was timely and properly
raised. The statute of limitations claim is not procedurally barred. But it is
the claim Judge Bush prejudiced with fraud. Judge Bush’s decision of when
the statute of limitations starts to run is both “contrary to” an involved an
“unreasonable application” of clearly established federal law as
determined by this court. Constituting judicial misconduct and a violation
Federal Rights guaranteed to Petitioner by the Due Process Clause in the 14th
Amendment.

4

Rights guaranteed to Petitioner by the Due Process Clause in the 14th Amendment
of the United States Federal Constitution have been violated for the following
reason(s):
1. “unreasonable application” of clearly established state law pertaining to
the statute of limitations defense. In violation of State v. Soukup, 746 N.W.
2d 918,922(Minn.App.2008). See memorandum of law in Appendix D
2. “unreasonable application” of clearly established federal law pertaining to
the statute of limitations defense. In violation of Toussie v. U.S., 397 U.S.
112,25 L. Ed. 2d 156(1970). See memorandum of law in Appendix D
3. “unreasonable application” of clearly established federal law pertaining to
perjury. In violation of U.S. v. Dunnigan, No.91-1300. February 23,1993.
(see memorandum of law in Appendix D)
4. “unreasonable application” of clearly established federal law pertaining to
Prosecutor Misconduct (Brady Violation). In violation of Brady v.
Maryland, 373 U.S. 83(1963). See memorandum of law in Appendix §
5. “unreasonable application” of clearly established federal law pertaining to
sentencing. In violation of North Carolina v. Pearce,395 U.S. 711, 72526(1969) and State v. Carver,390 N.W.2d 431, 434(Minn.App.l986).
(See memorandum of law in Appendix D)
6. Judicial Misconduct targeting a person of color with vindictiveness
contributing to systemic racism. In violation of In re Anderson, 312 Minn.
442, 252 N.W.2d 592(1977). See memorandum of law in Appendix D
5

I

Adolfo Avila

Judge Bush’s decision of when the statute of limitations begins to run is both
“contrary to” and involves an “unreasonable application” of clearly established
federal law as determined by the Supreme Court of the U.S. See Toussie v. U.S.,
397 U.S. 112,25 L. Ed. 2d 156(1970).
In Toussie v. United States, the Supreme Court answered the question of when the
statute of limitations starts to run by considering the purpose served by the
limitation, the nature of the crime and the legislative intent. The following general
principles were discussed: Three main rationales animate statute of limitations: 1)
protecting defendants from delayed prosecution where the facts “may have become
obscured by the passage of time,” 2) minimizing “the danger of official
punishment [for] acts in the far-distant past.” And 3) encouraging law enforcement
to promptly investigate suspected criminal activity.
1) That criminal limitations statutes are to be liberally interpreted in favor of
repose.
2) The statute of limitations normally begins to run when the crime is complete.
3) And congress has declared a policy that the statute of limitations should not
be extended “except as otherwise expressly provided by law.”
By permitting the time-barred charges to proceed, Judge Bush subjected Petitioner
to prosecution even though the delay obscured many facts (the 2006 Lyon County
Sheriff report) and subjected him to punishment for distant acts and allowed the
state to avoid “properly investigating] suspected criminal activity.”
6

The record established that the reporting of the act that constitutes the crime
charged in the July 3,2014 criminal complaint was reported to Officer Rolling in
2001 constituted official involvement. Which triggered the statute of limitations 3year period in section 628.26(e) (2009). Quoting Officer Rolling from the July
25,2011 interview of M.H.: See Exhibit 2 (pg.9)
Officer Rolling: But did you find out you were pregnant in Marshall or Tracy?
Maria: Tracy, when I was in school in Tracy.” (pg. 9 lines 3 and 4.)
Officer Rolling: Okay. Living at the trailer court because I knew you guys lived in
the trailer court sometime.
Maria: mhmm
Officer Rolling: Was it the trailer house right when you come off Greenwood?
Maria: Yeah.
Officer Rolling: You come in and it is right there?
Maria: Yeah.
Officer Rolling: Okay was it blue or something?
Maria: Yeah.
Officer Rolling: Yup. And that is where you guys were living when I first heard
about it. You guvs were living in the trailer court. Were your other sisters pregnant
at that time or? See Exhibit 2(pg.9 lines 3,4 and 16 to 25)
In this interview M.H. made a statement that the family moved from the trailer
court to the farm around March 2002:
Maria: “I was 16, she was probably, I don’t know a month or so old or something.
When we moved out there. Because I had her in March.”
Officer Rolling discovered the offense(s) between July 5,2001 and March 2002.
See Exhibit 2 (pg.6 lines 9 and 10) and Exhibit 4.
7

Another important purpose of the statute of limitations is to protect a defendant
from having to defense himself against stale charges. In this case the local law
enforcement authorities (Officer Rolling) was notified of the particular conduct
constituting the offense(s) (sexual-penetration/pregnancy of M.H.) any were from
July, 5 2001 and March 2002. The same conduct constituting the offense(s)
charged in the July 3,2014 criminal complaint drafted and signed by Officer
Rolling. See Exhibit 7. It took Officer Rolling 13 years to draft and sign the
Offense(s) reported to him in 2001. Which Officer Rolling has made a career out
of law enforcement since 1997 and continues to be a law enforcement officer
today. Which this case is based on the statute of limitations 3-year period. Which it
was triggered around March 2002. In applying the principles in Toussie v. U.S. to
this case. The strict application of the statute of limitations 3-year period in section
628.26(e) (2009) does apply for Officer Rolling discovered the offense(s) between
July 5,2001 and March 2002 constituting official involvement. But did not draft
and bring the criminal complaint until July 3,2014 to the prosecuting authorities.
Officer Rolling’s actions were the direct cause for the 13-year delay in prosecuting
the offense(s). Which congress has declared a policy that the statute of limitations
should not be extended “except as otherwise expressly provided by law.” Judge
Bush’s labeling the report of sexual abuse of M.H. a “rumor” does not equal to
“expressly provided by law.”
8

Judge Bush’s ruling to label the report of sexual abuse of M.H. a “rumor” resulted
in a decision that was both “contrary to” and involved an “unreasonable
application” of clearly established governing law set forth in the Supreme Court
case Toussie v. U.S., pertaining to when the statute of limitations begins to run.
Under the “unreasonable application” clause, the statute is clear that habeas may
issue under 28 U.S.C.S. & 2254(d)(1). If a state court “decision” is contrary to
clearly established federal law. See Williams v. Taylor. 529 U.S. 362 Supreme
Court of the U.S. (April 18,2000) “under 2254(d)(l)’s “unreasonable application”
clause, a federal court may grant a writ of habeas corpus if a state court identifies
the correct governing legal principle from the Supreme Court’s decisions but
unreasonably applies that principle to the facts of the prisoner’s case.”
This case falls under section 2254(d)(1) resulted in a decision that was contrary to, or involved
an unreasonable application of clearly established Federal law, as determined by the Supreme
Court of the United States; or
A. STANDARD OF REVIEW
Reasonableness Standard
APPOSITE AUTHORITY
Lindh v. Murphy. 96 F.3 856 (7th Cir.1996).
STANDARD OF CORRECTNESS
The law in effect at the time the decision became final.
APPOSITE AUTHORITY
Teague v. Lane. 489 U.S. 288,310(1989)
This case also falls under section 2254(b)(l)(B)(ii) circumstances exist that render
such a process ineffective to protect the rights of the applicant. See, Panetti v.
David,863 F.3d 366, 373-74(5th Cir. 2017).
9

Judge Bush’s decision to deny Petitioner’s motion to dismiss pertaining to Officer
Rolling’s perjury that prejudiced the statute of limitations defense is both “contrary
to” and involved an “unreasonable application” of clearly established federal law
as determined by the Supreme Court of the U.S. See U.S. v. Dunnigan, No 911300. (February 23, 1993). In U.S. v. Dunnigan, the Supreme Court set out the
parameter of perjury within the U.S. law. The court uses the Dunnigan -based legal
standard: a defendant (a) knowingly made a (b) false (c) material statement (d)
under oath (e) in a legal proceeding.
The Dunnigan distinction manifests its importance with regard to the relation
between two components parts of perjury’s definition: in willfully giving a false
statement, a person must understand that he is giving a false statement to be
considered a perjurer under the Dunnigan framework. Deliberation on the part of
the defendant is required for a statement to constitute perjury.
It is clearly documented by Officer Rolling himself that he knew of the
offense(s) charged since 2001. Which he acknowledged to M.H. in the July
25,2011 interview and documented it also in his July 26,2011 Lyon County
Sheriffs report. Which these statements must be true because as a police officer
just doing his job documented everything to initiate the case. And he was not under
oath when he made the first statements material to the statute of limitations
defense. Plus, the statute of limitations defense had not been brought up yet.
10

First material statements made to the statute of limitations defense:
In July 25,2011, Quoting Officer Rolling from July 25,2011 interview of M.H.:
Officer Rolling:” but did you find out you were pregnant in Marshall or Tracy?”
Maria:” Tracy, when I was in school in Tracy.”
Officer Rolling:” Yup. And that is where you guys were living when I first heard
about it. You guvs were living in the trailer court.” See Exhibit 2(pg.9)
In the July 26,2011 Lyon County Sheriff Report (Introduction statement)
“On July 25, 2011 I conducted an interview with Maria Herrera at the Lyon
County Sheriffs Office. I began speaking with Maria and introduced myself. I
explained that, prior to working at the Lyon County Sheriffs Office, I had been a
police officer with the City of Tracy. I explained that while working there I had
heard a rumor that Adolfo Avila had gotten his daughters pregnant but I was never
able to substantiate that. I explained that I was somewhat familiar with the
situation, and if she could tell me what had all occurred.” See Exhibit 3.
Once the statute of limitations defense was raised at the June 30,2015 omnibus
hearing Officer Rolling made his first false material statement to the statute of
limitations defense. Completely contradicting his statements made in 2011, 4 years
earlier. Which he was under oath this time: Quoting Officer Rolling from the June
30,2015 omnibus hearing: See Exhibit 5
Prosecutor Rick Maes:” Now, Officer, can you tell us when this matter was first
reported to the Law Enforcement Agency?”
Officer Rolling:” I received the report in July 2011.”
Prosecutor Rick Maes:” Was that the first time you were notified of any alleged
misconduct involving Mr. Avila and the alleged victim?”
Officer Rolling:” That was the first time it was reported to me.”
Officer Rolling (a) knowingly made a (b) false (c) material statement (d) under
oath (e) in a legal proceeding directly affecting the statute of limitations defense
outcome constituting perjury.
11

Under the “unreasonable application” clause, the statute is clear that habeas may
issue under 28 U.S.C.S. & 2254(d)(1). If a state court “decision” is contrary to
clearly established federal law. See Williams v. Taylor, 529 U.S. 362 Supreme
Court of the U.S. (April 18,2000).
This case falls under section 2254(d)(1) resulted in a decision that was contrary to,
or involved an “unreasonable application” of clearly established Federal law, as
determined by the Supreme Court of the United States; or
A. STANDARD OF REVIEW
Reasonableness Standard
APPOSITE AUTHORITY
Lindh v. Murphy, 96 F.3 856 (7th Cir.I996).
STANDARD OF CORRECTNESS
The law in effect at the time the decision became final.
APPOSITE AUTHORITY
Teague v. Lane, 489 U.S. 288,310(1989)
This case also falls under section 2254(b)(l)(B)(ii) circumstances exist that render
such a process ineffective to protect the rights of the applicant. See, Panetti v.
David,863 F.3d 366, 373-74(5th Cir. 2017).
12

REASONS FOR GRANTING THE PETITION
The Petition should be granted for the following compelling reasons: as to call for
an exercise of this court’s Supervisory power to correct the systemic racism found
in our judicial system in the state of Minnesota. Which it is prejudicing people of
color in civil and criminal matters. Petitioner suffered prejudiced due to systemic
racism. But this case is extremely important beyond Petitioner and the particular
facts in this case. It is of extreme national importance for the Supreme Court of the
U.S. to lead by example in the continuation of the struggle to eradicate systemic
racism. Especially in these times of nationwide civil unrest following the murder of
a colored man named George Floyd by law enforcement in the state of Minnesota.
The abolishing of systemic racism especially in our judicial system is as important
as our current nation-wide police reform that is underway due to the murder of
George Floyd. If systemic racism is not corrected when found it harms all people
of color when it comes to Equal Protection under the law in civil and criminal
matters. Which this case is a perfect example of how systemic racism unfairly
prejudices people of color. Ij}®f;case judicial misconduct targeted a person of
color resulting in an illegal conviction by law enforcement and once again in the
state of Minnesota. The very fact that this case with complete disregard for the rule
of law constituting judicial misconduct. That targeted a person of color made it to
13

the doorsteps of the Supreme Court of the U.S. proves the systemic racism in our
judicial system. Minnesota caselaw proves whitemenLwith the same
type of crime like in this case were granted equal protection
under the law and their statute of limitations defense was upheld
See State v. Keller, unpublished Lexis 780(Minn.App.2018)and
State v. French, Court of Appeals,No.CX-86-326(Minn.App.August
19,1986). Judge Bush a white Judge allowed Officer Rolling
another white person, to commit perjury under oath,to convict
Petitioner a person of color. Which Prosecutor Rick Maes,
another white person, endorsed the perjury misconduct. The
evidence that proves the perjury is clearly documented in the
record for the world to see. But the problem is not the over-;
whelming evidence proving the perjury. It is the systemic racism
in the Minnesota Judicial system, that did not want to correct
Judge Bush’s judicial misconduct, targeting a person of color.
How is systemic racism going to be abolished in judicial systems,
if judicial misconduct targeting people of color, is not corrected
when found?
The Supreme Court of the U.S. has the power in the quest for
true justice, to heal this great nation of its history of racism,
and its current nation wide civil unrest. Specifically due to the
systemic racism in the State of Minnesota. Thus, has the power to
bring together this divided nation on the subject of systemic
racism by upholding equal justice for all.
14

Petitioner respectfully requests for the relief that this illegal Lyon County
conviction contrary to well settled state and federal laws be overturned and
Petitioner be released from custody to correct the infringement by Judge Bush on
i

Petitioner’s Fundamental Federal Rights guaranteed to him by the Due Process
Clause in the 14th Amendment of the U.S. Federal Constitution. Which I declare
under penalty of perjury that everything I stated in this writ of certiorari petition to
the Supreme Court of the United States is true and correct.28 U.S.C.S. & 1746.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

GlM? Jz ^^
Date:

~7- /

ISAIAH 56:1

Thus says the Lord:
’’Keep Justice, and do righteousness,"

15

